J

1S1& 13^c!c
S6f fVbf'T
CA^TjU

AfPmiX A

q.

*
$

wi

07/17/2019
TEXAS DEPARTMENT OF MOTOR VEHICLES
VEHICLE TITLES AND REGISTRATION DIVISION

LIC CCM38F DEC/1991 OLD # CCM38F
EWT 3400 GWT
3400
PASSENGER-TRUCK PLT, STKR
REG CLASS 25
$ 0,00 HARRIS CNTY •
TITLE 00000000031801513 ISSUED 07/24/1991 ODOMETER N/A REG DT 00/00/0000
YR:1982 MAK:BUIC MODL: RLM BDY STYL:2D VEH CLS:PASS
SALE PRC:
$0.00
VIN: 1G4AM47A4CR120619 BODY VIN: COLOR: UNKNOWN
PREV OWN BERNARDO VILLANUEVA BAYT
OWNER
CARLOS GARNICA, ,3102 E JONES RD 27,,BAYTOWN,TX, 77.521
PLATE AGE: 31 LAST ACTIVITY 02/23/1994 CONVSN OFC: CON AR
REMARKS PAPER TITLE.

?‘

r

\

*TITLE AND REGISTRATION VERIFICATION*

>'

;

kocHL^ Gmi3

//
t

[

g~TH C'lR. rhifttAt'

AffierJdf* B

10,

/

Case: 20-20029

Document: 00515334146

Page: 1

Date Filed: 03/05/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 20-20029

In re: ERIC WALLACE KOEHL,
Movant

Motion for an order authorizing
the United States District Court for the
Southern District of Texas to consider
a successive 28 IJ.S.C. § 2254 application

Before SMITH, DENNIS, and DUNCAN, Circuit Judges.
PER CURIAM:
Eric Wallace Koehl, Texas prisoner # 661873, moves for authorization to
file a successive 28 IJ.S.C. § 2254 application, challenging his conviction for
unauthorized use of a motor vehicle. A prisoner seeking to file a successive
§ 2254 application must obtain an order from this court authorizing the district
court to consider the application.

28 IJ.S.C. § 2244(b)(3)(A).

To obtain

authorization, Koehl must make a prima facie showing that his claims rely on
“a new rule of constitutional law, made retroactive to cases on collateral review
by the Supreme Court, that was previously unavailable,” or that “the factual
predicate for the claim [s] could not have been discovered previously through
the exercise of due diligence” and “the facts underlying the claim [s], if proven
and viewed in light of the evidence as a whole, would be sufficient to establish
by clear and convincing evidence that, but for constitutional error, no

Case: 20-20029

Document: 00515334146

Page: 2

Date Filed: 03/05/2020

No. 20-20029
reasonable factfinder would have found [him] guilty.” 28 U.S.C. § 2244(b)(2):
see § 2244(b)(3)(C).
In his motion, Koehl raises the following claims that he raised in his first
§ 2254 application: his first appellate counsel falsified the appellate record, and
his second appellate counsel did not correct the record; his trial counsel was
ineffective because he did not file 23 defense motions; and the indictment was
defective because it contained false information.

These claims are not

considered. See § 2244(b)(1).
In addition, Koehl asserts that he is actually innocent of the offense of
conviction based on a new factual predicate, a certified vehicle title and
registration from the Texas Department of Motor Vehicles, which states that
the sale price of the vehicle involved in the offense was zero and that the vehicle
had no value. This court “does not recognize freestanding claims of actual
innocence on federal habeas review.” In re Swearingen, 556 F.3d 344. 348 (5th
Cir. 2009). Prior to the enactment of the Antiterrorism and Effective Death
Penalty Act, the Supreme Court held that an applicant could overcome the
judicially created bar to filing a second or successive application by
demonstrating that “it is more likely than not that no reasonable juror would
have convicted him in the light of. . . new evidence.” Schlup v. Delo, 513 U.S.
298. 327 (1995); see McQuiggin v. Perkins, 569 U.S. 383. 386 (20131. If an
actual innocence exception exists, Koehl has not shown that in view of the
vehicle title and registration, it is more likely than not that no reasonable juror
would have convicted him. See Perkins, 569 U.S. at 386: Schlup, 513 U.S. at
327.

Koehl also seeks to raise the following claims: he was denied the right to
call five defense witnesses; he was denied the right to a fair public trial by an
“all Black court”; he was denied the right to have a copy of the trial transcript;

2

Case: 20-20029

Document: 00515334146

Page: 3

Date Filed: 03/05/2020

No. 20-20029
the State withheld favorable evidence, the vehicle title and registration, in
violation of Brady v. Maryland, 373 U.S. 83 (1963); the State presented the
false testimony of the vehicle’s owner concerning the value of the vehicle; his
trial counsel failed to investigate the facts which would have shown that the
vehicle had no value and that the victim bed about the value of the vehicle,
and failed to object to racial discrimination against Koehl by the “all Black
court”; Koehl’s Fourth Amendment rights were violated; and the respondent
committed fraud on the court during his first § 2254 proceeding. To the extent
that these claims are based on the allegedly new factual predicate, the vehicle
title and registration, Koehl has not made the requisite showing. See Perkins,
569 IJ.S. at 386: Schlup, 513 TJ.S. at 329. The remaining claims are based on
facts that were available to him at the time of his trial and before he filed his
first § 2254 application. Therefore, he has not made the requisite showing
concerning these claims. See § 2244(b)(2).
This is Koehl’s second motion for authorization to file a successive § 2254
application, and one of the claims raised herein is essentially identical to the
claim he identified in his prior motion for authorization. Accordingly, Koehl is
warned that the filing of repetitious or frivolous motions for authorization to
file successive habeas corpus applications will invite the imposition of
sanctions, including dismissal, monetary sanctions, and/or restrictions on his
ability to file pleadings in this court and any court subject to this court’s
jurisdiction.
IT IS ORDERED that Koehl’s motion for authorization to file a
successive habeas corpus application is DENIED, his motion for appointment
of counsel is DENIED, and a SANCTION WARNING IS ISSUED.

3

1/

,c
\J

/\ffW^ to C-

D .c • Ib'ZrrssSspX

w-

//

United States District Court
Southern District of Texas

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
ERIC WALLACE KOEHL,
TDCJ #661873,

November 06, 2019
David J. Bradley, Clerk

§
§
§
§
§

Petitioner,
vs.

§

LORIE DAVIS, Director,
Texas Department of Criminal Justice Correctional Institutions Division,
Respondent.

CIVIL ACTION NO. H-19-4285

§
§
§
§
§
§
§

ORDER OF DISMISSAL
State inmate Eric Wallace Koehl (TDCJ #661873) has filed a petition for a writ of
habeas corpus under 28 U.S.C. § 2254, challenging a conviction that was entered against
him in Harris County Cause No. 621969. He has also filed a memorandum of law in
support of his petition and an application for leave to proceed in forma pauperis. After
reviewing all of the pleadings as required under 28 U.S.C. § 2241, et seq., and Rule 4 of
the Rules Governing Section 2254 Cases in the United States District Courts, the Court
concludes that the case must be dismissed for reasons explained briefly below.
Court records reflect that Koehl was convicted and sentenced to 30 years’
imprisonment in Harris County Cause No. 621969 for the offense of unauthorized use of a
motor vehicle. That conviction, which was entered against him on May 26, 1992, was
affirmed on direct appeal in 1993. See Koehl v. State, 857 S.W.2d 762 (Tex. App.
Houston [14th Dist.] 1993, pet. ref d).

In a federal habeas petition that is dated October 12, 2019, Koehl contends that he
is entitled to relief from his conviction for unauthorized use of a motor vehicle in Cause
No. 621969 because he is actually innocent. In particular, Koehl claims that he was not
allowed to present testimony from several witnesses at trial regarding the vehicle that he
was accused of stealing.
Court records confirm that this is not the first federal habeas petition that Koehl has
filed to challenge his conviction in Cause No. 621969. Koehl previously filed a petition
for federal habeas relief in 2000, which challenged the sufficiency of the evidence and
asserted that he was denied effective assistance of counsel, among other claims. The
district court granted the respondent’s motion for summary judgment and denied Koehl’s
petition on the merits in a detailed opinion. See Koehl v. Johnson, Civil No. H-00-3704
(S.D. Tex. Feb. 25, 2004) (Docket Entry No. 4S). The Fifth Circuit denied Koehl’s petition
for a certificate of appealability from that decision on July 29, 2004. See id. (Docket Entry
No. 59).

(4

Because Koehl is now attempting to rase claims that could have been presented
V'previously, his pending petition qualifies as a “second or successive” habeas corpus
application. See In re Cain, 137 F.3d 234, 235 (5th Cir. 1998). Before a second or
successive application may be filed in district cour^the applicant must first move in the
appropriate court of appeals for an order authorizing the district court to consider the
application. See 28 U.S.C. § 2244(b)(3)(A)y/ Court records reflect that Koehl previously
requested leave to file a successive petition arguing that he was denied the right to present
2

l

five defense witnesses, but the Fifth Circuit denied that request on April 4, 2006. See In
re Koehl, No. 06-20023 (5th Cir. April 4 2006) (per curiam) (Docket Entry No. 60 in Civil
Action No. H-00-3704).

f

Because Koehl has not received the requisite authorization to proceed from the Fifth
Circuit, this Court lacks jurisdiction to entertain his petition. Therefore, this case must be
dismissed. See Fed. R. Civ. P. 12(h)(3) (“If the court determines-at any time that it lacks
subject-matter jurisdiction, the court must dismiss the action.”).
Accordingly, the Court ORDERS as follows:
1. The petition for a writ of habeas corpus filed by Eric Wallace Koehl (Docket
Entry No. 1) is DISMISSED for lack of jurisdiction.
2. A certificate of appealability is D ENIED.
3. The petitioner’s motion for leave to proceed in forma pauperis (Docket Entry
No. 3) is DENIED as moot.
The Clerk will provide copies of this order to the parties.

MOV 0 5 2019

SIGNED at Houston, Texas on

, 2019.

ALFRED H. BENNETT
UNITED STATES DISTRICT JUDGE

3

f

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. WR-49,339-94

EX PARTE ERIC WALLACE KOEHL, Applicant

ON APPLICATION FOR A WRIT OF HABEAS CORPUS
CAUSE NO. 621969-C IN THE 185TH DISTRICT COURT
FROM HARRIS COUNTY

Per curiam.
ORDER
Applicant was convicted ofunauthorized use of a motor vehicle and sentenced to thirty years ’
imprisonment. The Fourteenth Court of Appeals affirmed his conviction. Koehl v. State, 857
S.W.2d 762 (Tex. App.—Houston [14th Dist.] 1993). Applicant filed this application for a writ of
habeas corpus in the county of conviction, and the district clerk forwarded it to this Court. See Tex.
Code Crim. Proc. art. 11.07.
In his first and second grounds, Applicant contends that his punishment is excessive and that
the Double Jeopardy Clause was violated. In a supplemental ground, he contends that he is actually
innocent. Applicant’s first and second grounds are denied. His supplemental ground is dismissed.
See Tex. Code Crim. Proc. art. 11.07, § 4. Accordingly, this application is denied in part and

((
/

f

\T

C\&> t^o

/WeW/M £

I^ *

w

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

March 19, 2020
#661873

Mr. Eric Wallace Koehl
CID Glen Ray Goodman Transfer Facility
349 Private Road 8430
Jasper, TX 75951
No. 20-20029

In re: Eric Koehl

Dear Mr. Koehl,
We received your "Motion for Rehearing and Appeal to the Decision
by Circuit Judges; Smith, Dennis, and Duncan." Pursuant with 28
U.S.C. Section 2244(b)(3)(E) there is no review of the denial of
a request to file a successive petition permitted,
We take no
action on your motion in this case, nor in your appeal number 1920839 also referenced on the motion.
Sincerely,
LYLE W. CAYCE, Clerk

By:

Donna L. Mendez, Deputy Clerk
504-310-7677

